No. _________
BRIAN MALPASSO, et al.,
Applicants,
v.
WILLIAM PALLOZZI,
Respondent.
CERTIFICATE OF SERVICE
I, John D. Ohlendorf, a member of the Supreme Court Bar, certify that
I did, on the 11th day of July, 2019, send out from Washington, D.C., a package containing one copy of the APPLICATION TO THE HON. JOHN G.
ROBERTS, JR. FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. The package was plainly
addressed to the following:
Mark Bowen
Counsel of Record for Respondent
Office of the Attorney General of Maryland
1201 Reisterstown Road
Pikesville, MD 21208-0000
(410) 653-4228
mark.bowen@maryland.gov
To be filed for:
DAVID H. THOMPSON
Counsel of Record
PETER A. PATTERSON
NICOLE J. MOSS
JOHN D. OHLENDORF
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
Counsel for Applicants

Date: July 11, 2019

Jo n D. Ohlendorf
Counsel for Applicants

2

